<html>
<title> - MARKUP OF: H.R. 6079, ``MICROLOAN IMPROVEMENT ACT OF 2020'' H.R. 6078, ``MICROLOAN TRANSPARENCY AND ACCOUNTABILITY ACT OF 2020'' H.R. 6133, ``STEP IMPROVEMENT ACT OF 2020'' H.R. 6021, ``NORTHERN MARIANA ISLANDS SMALL BUSINESS DEVELOPMENT ACT''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
MARKUP OF: H.R. 6079, ``MICROLOAN IMPROVEMENT ACT OF 2020'' H.R. 6078, 
 ``MICROLOAN TRANSPARENCY AND ACCOUNTABILITY ACT OF 2020'' H.R. 6133, 
``STEP IMPROVEMENT ACT OF 2020'' H.R. 6021, ``NORTHERN MARIANA ISLANDS 
                    SMALL BUSINESS DEVELOPMENT ACT''

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             MARCH 11, 2020

                               __________

                               
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         
  
  

  

            Small Business Committee Document Number 116-079
             Available via the GPO Website: www.govinfo.gov
             
   
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-895                WASHINGTON : 2020 
              
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                                APPENDIX

Additional Material for the Record:
    H.R. 6079, "Microloan Improvement Act of 2020"...............    13
    H.R. 6078, "Microloan Transparency and Accountability Act of 
      2020"......................................................    20
    H.R. 6133, "Step Improvement Act of 2020"....................    25
    H.R. 6021, "Northern Mariana Islands Small Business 
      Development Act"...........................................    33


MARKUP OF: H.R. 6079, ``MICROLOAN IMPROVEMENT ACT OF 2020'' H.R. 6078, 
 ``MICROLOAN TRANSPARENCY AND ACCOUNTABILITY ACT OF 2020'' H.R. 6133, 
``STEP IMPROVEMENT ACT OF 2020'' H.R. 6021, ``NORTHERN MARIANA ISLANDS 
                    SMALL BUSINESS DEVELOPMENT ACT''

                              ----------                              


                       WEDNESDAY, MARCH 11, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:34 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Crow, Davids, Evans, Schneider, Espaillat, Delgado, 
Houlahan, Craig, Chabot, Radewagen, Hern, Hagedorn, Stauber, 
Burchett, Joyce, and Bishop.
    Also Present: Representative Sablan.
    Chairwoman VELAZQUEZ. Welcome to our first markup of the 
Second Session of the 116th Congress. Today, we will be 
considering four bipartisan bills: two of them modernizing the 
Microloan program, and another will give small businesses the 
tools they need to enter and thrive in the global marketplace. 
The last bill will ensure that 1,7000 small businesses that 
employ 18,000 people in the Commonwealth of the Northern 
Mariana Islands will have access to valuable SBA programs and 
resources.
    Before we get down to business, I would like to take a 
moment to thank the Ranking Member and his staff and all of the 
Members of the Small Business Committee for their tireless 
bipartisan work on behalf of small businesses.
    Over the course of the past year, our committee has held a 
number of hearings to review programs at SBA. We have heard 
from Administrator Carranza and her team of associate 
administrators, Inspector General Ware, and small businesses 
throughout the country to determine what is working well and 
what can be improved at SBA.
    The four bills that we are considering today are a plethora 
of hard work. They will make much needed improvements to SBA 
programs to make it easier for entrepreneurs to grow their 
small businesses.
    With that, let us turn to the bills under consideration.
    H.R. 6079, the Microloan Improvement Act of 2020, 
introduced by Mr. Kim and cosponsored by Mr. Burchett; H.R. 
6078, the Microloan Transparency and Accountability Act of 
2020, introduced by Mr. Burchett and cosponsored by Mr. Kim; 
H.R. 6133, the State Trade Expansion Program Improvement Act of 
2020, introduced by Ms. Finkenauer and cosponsored by Mr. 
Spano; and H.R. 6021, the Northern Mariana Islands Small 
Business Development Act, introduced by Mr. Sablan of the 
Commonwealth of Northern Mariana Islands and cosponsored by Ms. 
Radewagen of American Samoa.
    All of today's bills are a result of the committee's 
commitment to bipartisanship, and I urge Members to support 
them.
    I would now like to recognize our Ranking Member, Mr. 
Chabot, for his opening remarks.
    Mr. CHABOT. Thank you, Madam Chair, for holding today's 
meeting. Again, I appreciate your willingness to work with me 
and with all the Members on our side, as well as our staff in 
such a bipartisan manner.
    All four of these bills are led by Members of both parties, 
which has become standard practice in our committee, and we 
thank you for that.
    I will be brief in my opening as we will discuss each bill 
as it is called.
    Before we begin, I want to say that work here in our 
committee continues to be of critical importance.
    Just yesterday, for an example, we held an exceptional 
hearing where we discussed, in depth, the effect coronavirus is 
having on American's small businesses and could have in the 
immediate and long-term future.
    As each of us know here in this committee, as the small 
business economy goes, so goes our national economy.
    Because of the coronavirus pandemic, small firms are 
suffering from significant supply chain disruptions, economic 
uncertainty, and a generalized sense of concern.
    Historically, such sentiments do not bode well for 
business, and especially small business. Without question, the 
health of our citizens is our number one priority, but in this 
committee our responsibility is to continue to seek out ways to 
help small firms and their employees navigate difficult times 
such as these.
    Today, we have the opportunity to advance four bills that 
strengthen several initiatives administered through the Small 
Business Act. I support each of these measures and thank each 
of our Members, both republican and democratic alike, for their 
leadership and work on these bills.
    I yield back.
    Chairwoman VELAZQUEZ. Thank you, very much. The gentleman 
yields back.
    Before we get into the individual bills, are there any 
Members present who seek recognition for the purposes of making 
an opening statement?
    H.R. 6079
    Our first bill today is H.R. 6079, the Microloan 
Improvement Act introduced by Mr. Kim and cosponsored by Mr. 
Burchett. The bill enhances the Microloan program, which has 
been a lifeline of affordable capital for thousands of aspiring 
entrepreneurs each yeah, especially those from underserved 
communities.
    I would like to now recognize the gentleman from New 
Jersey, Mr. Kim, the sponsor of the bill, for an opening 
statement.
    Mr. KIM. Thank you, Chairwoman. Thank you to my colleague 
from Tennessee, Mr. Burchett, for working across the aisle with 
me on this important legislation that will modernize SBA's 
Microloan program.
    Many entrepreneurs, especially those from underserved 
communities, have great difficulty in securing much-needed 
capital for their businesses. For these individuals, 
traditional loans may be out of reach. The Microloan program 
helps to alleviate this problem by extending business loans and 
technical support to entrepreneurs.
    Earlier this month, I chaired a hearing under the 
Subcommittee on Economic Growth, Tax, and Capital Access, which 
examined the SBA's Microloan program where we heard testimony 
that reinforced the immense value of this program. The program 
has meaningfully improved the well-being of tens of thousands 
of businesses nationwide.
    In my district alone, 198 businesses received microloans in 
the total amount of almost $3.25 million in fiscal year 2019. 
Without these microloans, many of these entrepreneurs would be 
unable to pay bills, would have to cut staff, or worse, shut 
their doors.
    However, the program in its present form is not without its 
faults. Many of the shortcomings of the program stem from the 
fact that it is long overdue for modernization.
    A common critique form participating lenders is that 
antiquated rules unnecessarily restrict their lending activity. 
To resolve this and other concerns regarding the Microloan 
program, Mr. Burchett and I introduced the Microloan 
Improvement Act. In short, this bill seeks to inject the 
program with much-needed flexibility that will ease access to 
capital for small business owners.
    This bill is an important step toward improving a program 
that has been critical to the success of small businesses. I 
thank this committee for its support of these efforts, and I 
look forward to a new chapter for the Microloans Program.
    I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    I now would like to recognize the gentleman from Tennessee, 
Mr. Burchett, the cosponsor of the bill, for an opening 
statement.
    Mr. BURCHETT. Which bill are we on? We are on 6079?
    Chairwoman VELAZQUEZ. Correct.
    Mr. BURCHETT. Okay, great.
    Well, thank you Madam Chair. I appreciate you and the 
Ranking Member's leadership on this issue, and I was happy to 
work with Mr. Kim on the Microloan Improvement Act in order to 
help grow small businesses in our rural areas. I ask for 
overwhelming support. I do want to thank our staffs for all the 
hard work they do both sides of the aisle. They seem to do all 
the work and we get all the credit, so it would be nice to 
recognize them at this time. I also want to thank everybody for 
their support.
    I yield the remainder of my hard-earned time. Back to you, 
Chairlady.
    Chairwoman VELAZQUEZ. Thank the gentleman. The gentleman 
yields back.
    Now are there any other Members who wish to be recognized 
for a statement on H.R. 6079?
    I now recognize the Ranking Member.
    Mr. CHABOT. Thank you, Madam Chair. I will be brief.
    To assist small dollar borrowers, the SBA offers the 
Microloan program, where small businesses can receive loans of 
$50,000 or less from nonprofit intermediaries. Beyond 
financing, the Microloan program also requires the nonprofit 
intermediaries to deliver technical assistance in counseling 
small business borrowers.
    I want to thank Mr. Kim from New Jersey, and Mr. Burchett 
from Tennessee, for working in a bipartisan manner to introduce 
this bill. H.R. 6079 updates and modernizes outdated provisions 
in the Microloan program, such as the 155th rule, while also 
adding key flexibility requirements. I fully support this 
commonsense legislation and urge my colleagues to vote yes.
    I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I now recognize myself briefly.
    The Microloan program provides funding to nonprofit, 
intermediary lenders, who in turn lend to very small businesses 
and startups that are not ready for bank loans.
    These intermediaries help small businesses succeed by 
providing training and technical assistance. Mr. Kim put forth 
a bill designed to make it easier for microloan intermediaries 
to provide affordable capital to existing microbusinesses and 
prospective entrepreneurs. Notably, the bill illuminates the 
owners 155th rule.
    I want to thank Mr. Kim and Mr. Burchett for their 
leadership on this issue, and I encourage all my colleagues to 
vote yes.
    I would like to ask unanimous consent to submit letters of 
support from friends of the Microloan program, AEO, WIPP, that 
are for our microloan bills today.
    So ordered.
    If there is no further discussion, the committee will come 
to consideration of H.R. 6079.
    The clerk will read the report of the title of the bill.
    The CLERK. H.R. 6079, the Microloan Improvement Act.
    Chairwoman VELAZQUEZ. Without objection, H.R. 6079 is 
considered as read and open for amendment at any time.
    Are there any Members who wish to offer an amendment?
    Seeing none, the question is now on H.R. 6079.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the chair, the ayes have it.
    H.R. 6079 is agreed to.
    The question now occurs on reporting H.R. 6079 to the 
House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it, and H.R. 
6079 is reported to the House.
    Without objection, the committee staff is authorized to 
correct punctuation, make other necessary technical 
corrections, and conforming changes.
    Members have 2 days to file additional supplemental, 
dissenting, and minority views.
    H.R. 6078
    Our second bill today is H.R. 6078, the Microloan 
Transparency and Accountability Act introduced by Mr. Burchett 
and cosponsored by Mr. Kim. These bills offer incentives to 
microloan intermediaries to provide management assistance to 
rural entrepreneurs.
    I would now like to recognize the gentleman from Tennessee, 
Mr. Burchett, around an opening statement on H.R. 6079.
    Mr. BURCHETT. Thank you, Chairlady and Ranking Member. I 
really do appreciate you all's leadership and allowing us to 
bring these important issues forward.
    I am also thanking you all's staffs and our staffs that 
really do great work, and I am very appreciative of it.
    Do you have to have an end course to get the results that I 
think we are getting for American small business owners?
    Again, I want to thank my colleague, Mr. Kim. That will be 
Kim Tim in 2020 could be the new slogan. I do not know. His 
work with me on this bill, the Microloan Transparency and 
Accountability Act, this legislation would incentivize 
microloan intermediaries to involve themselves in rural small 
business and the Microloan program, while also improving the 
transparency on how taxpayer dollars are being spent at the 
SBA. Expanding the program is essential to small businesses in 
rural areas, but ensuring the accountability is also important.
    I ask for everyone's support. Once again, I yield the 
remainder of my hard-earned time back to the committee, as long 
as we all endorse the Kim Tim 2020 plan. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now I would like to recognize the cosponsor of the bill, 
the gentleman from New Jersey, Mr. Kim.
    Mr. KIM. Thank you, Chairwoman. Just to make sure, so I am 
at the top of the ticket?
    Mr. BURCHETT. Yes, sir. I do not really want all that 
hassle.
    Mr. KIM. You just want to be in the mix there.
    Mr. BURCHETT. Yeah, you know.
    Chairwoman VELAZQUEZ. I endorse that.
    Mr. BURCHETT. The occasional picture in front of the 
Christmas tree at Christmas time.
    Mr. KIM. We will get our staff to work out the details.
    Chairwoman VELAZQUEZ. Two minutes remain.
    Mr. BURCHETT. Chairlady, you are out of order.
    Mr. KIM. It has been really great working with my colleague 
from Tennessee on these bills, trying to find ways that we can 
move the needle forward, and this was a great example of, 
again, just finding something very tangible, something very 
specific that we can build off of.
    I really think that this is something that is very much 
needed. The studies are showing the rural businesses, 
especially those in the developmental stages, are in particular 
need of the strategic support.
    For this bill to be able to have the bonus 5 percent 
technical assistance grant to intermediary servicing rural 
areas, these are the types of things that are just real 
tangible things that can move the needle forward.
    It has been a pleasure working with Mr. Burchett on this, 
and we are going to do Kim Tim 2020.
    I yield back. Thanks a lot.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the Ranking Member, Mr. Chabot.
    Mr. CHABOT. Thank you, Madam Chair.
    I would suggest that the gentleman that has just been 
talking should include Mr. Hagedorn. Then we would have the Kim 
Tim and Jim Plan. So there you go.
    To enhance the dissemination of microloans in rural areas--
do we have another one?
    Chairwoman VELAZQUEZ. That was a boom.
    Mr. CHABOT. Maybe I should just yield back my time now.
    Specifically, H.R. 6078 gives microloan intermediaries that 
service rural communities the opportunity to receive bonus 
technical assistance grants. Additionally, it requires the SBA 
to conduct an annual portfolio risk analysis to ensure the 
growing program is protecting and safeguarding taxpayer 
dollars.
    I would like to thank Mr. Burchett and Mr. Kim for working 
together to protect American taxpayer dollars and to ensure our 
rural communities utilize this program to its fullest.
    I yield back my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now I recognize myself briefly.
    Earlier this Congress, this committee held hearings on the 
program where, among other things, we heard about the 
challenges that intermediaries face in providing technical 
assistance, especially in rural areas. Intermediaries must 
drive 2 hours or more to a borrower's place of business to 
conduct training, which can be expensive.
    These costs all come out of the intermediaries' bottom line 
and the measure the gentleman from Tennessee has put forward to 
make numbers with at least 25 percent of their loan portfolio 
in rural areas eligible for a bonus technical assistance grant 
is a reasonable one that I support and will encourage my 
colleagues to support.
    I thank both Mr. Burchett and Mr. Kim, and I urge a yes 
vote. I yield back the balance of my time.
    If there is no further discussion, the committee will come 
to consideration of H.R. 6078.
    The clerk will read the report of the title of the bill.
    The CLERK. H.R. 6078, the Microloan Transparency----
    Chairwoman VELAZQUEZ. Without objection, H.R. 6078 is 
considered as read and open for amendment at any time.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 6078.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 6078 is agreed to.
    The question now occurs on reporting H.R. 6078 to the 
House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 6078 is reported to the House.
    Without objection, the committee staff is authorized to 
correct punctuation, make other necessary technical 
corrections, and conforming changes.
    Members have 2 days to file additional supplemental, 
dissenting, and minority views.
    H.R. 6133
    The third bill that we are considering today is H.R. 6133, 
the STEP Improvement Act of 2020 introduced by Ms. Finkenauer 
and cosponsored by Mr. Spano. centsThis bill reauthorizes the 
State Trade Expansion Program (STEP) through 2024 and makes 
important improvements to streamline the application process 
and provides states with increased flexibility to use funds.
    I would now like to recognize the gentlewoman from Iowa, 
Ms. Finkenauer, the sponsor of the bill, for an opening 
statement.
    Ms. FINKENAUER. Thank you, Madam Chair.
    As the Congresswoman from Iowa's 1st Congressional 
District, I know firsthand that for our small businesses, the 
ability to access new markets and export goods promotes 
economic successes at home and in our communities.
    Given the importance of trade in my home state, especially 
for our farmers and our small business owners, who our farmers 
are also small business owners and manufacturers, I have made 
it a priority to improve and strengthen the State Trade 
Expansion Program.
    The State Trade Expansion Program gives small businesses 
the tools they need to start exporting and expanding into new 
markets. Many small businesses operate with razor-thin margins 
and only have a few employees. They do not always have the 
resources to attend a new trade show, design an international 
marketing campaign, or navigate foreign countries' complex 
rules and regulations.
    That is where the State Trade Expansion Program comes in. 
It is important that we reauthorize this program before it 
expires at the end of September. At the same time, we also need 
to fix some of the program's administrative challenges which we 
have heard about from folks in Iowa, from folks who have come 
to testify in front of our committee and other stakeholders.
    In the Rural Development, Agriculture, Trade, and 
Entrepreneurship Subcommittee that I chair with Ranking Member, 
Dr. Joyce, we held two hearings, actually, dedicated to better 
understanding and addressing the challenges that have come up 
with the State Trade Expansion Program. I also have a 
roundtable in my district to hear from the Iowa Economic 
Development Authority and small businesses that have used this 
program and used it successfully. What we heard was that the 
State Trade Expansion Program (STEP) is a great resource for 
our states. But we also heard about very confusing application 
process, really tight timelines, and poor communication from 
staff at the Small Business Administration.
    That is why today, taking all the feedback I have heard 
here in D.C., and especially back at home, I am proud to 
introduce the STEP Improvement Act of 2020. This bill will 
reauthorize the State Trade Expansion Program for 4 more years 
and make improvements, like creating a standard timeline and 
timeframe for applications, opening more channels for input and 
communication between the Small Business Administration and the 
states, and collecting better data on how the program helps our 
small businesses.
    I want to thank my colleague, Mr. Spano, who is introducing 
this legislation with me today, you know, this is a bipartisan 
issue, one that we have been happy to work on bipartisanly in 
Congress, you know, this last year, but for many years prior to 
this as well when this program was originally created, and I am 
glad we were able to work across the aisle again to get this 
done today.
    I urge all Members of this committee to support this bill.
    With that, Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentlelady yields 
back.
    Are there any other Members who wish to be recognized for a 
statement on H.R. 6133?
    The Ranking Member is recognized for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair. I would like to thank 
Ms. Finkenauer and Mr. Spano for their leadership on this 
legislation.
    H.R. 6133, the STEP Improvement Act of 2020, will 
reauthorize the SBA's State Trade Expansion Program for the 
next 4 fiscal years. The program facilitates small business 
participation and trade missions, ensures international 
marketing efforts, workshops, and other promotional activities.
    Since its establishment as a pilot initiative in 2010, STEP 
has been subject to numerous oversight reports issued by the 
GAO and the SBA's Office of the Inspector General. This 
committee has carefully reviewed each report and collected 
feedback from stakeholders to determine the reforms included 
within the STEP reauthorization. State trade agencies and the 
State International Development Organization have sent in 
letters of support for the bill.
    H.R. 6133 reinforces our commitment to seeing the SBA 
fulfill its goals relating to the STEP program and maximizes 
every dollar to help small businesses reach their potential in 
the international market. The bill provides greater flexibility 
to state trade agencies and enhances accountability at the SBA, 
a balance that will greatly improve program functions.
    Therefore, I would support this legislation and urge my 
colleagues to do so on both sides and yield back my time.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Now I recognize myself briefly.
    First, I would like to commend Representative Finkenauer 
for the work she did as the Chair of the Rural Development, 
Agriculture, Trade, and Entrepreneurship Subcommittee, which 
held two substantive hearings on STEP. This bill is a product 
of those efforts and a tremendous amount of hard work.
    The State Trade Expansion Program helps small businesses 
navigate the complexities of an international marketplace and 
is an invaluable tool for small businesses looking to export.
    In fiscal year 2019, SBA supported $974 million in export 
sales from STEP. While impressive, more can be done to help 
small businesses access new markets and export goods abroad and 
in turn boost our local economies at home. This bill delivers 
on the committee's priority to expand exporting opportunities 
and ensures small businesses have the resources they need to 
compete abroad.
    I thank Ms. Finkenauer and Mr. Spano for their leadership, 
and I urge my colleagues to support this bill.
    I ask unanimous consent to enter a letter of support from 
the State International Development Organizations.
    Without objection.
    If there is no further discussion, the committee will move 
to consideration of H.R. 6133.
    The clerk will read the report of the title of the bill.
    The CLERK. H.R. 6133, the----
    Chairwoman VELAZQUEZ. Without objection, H.R. 6133 is 
considered as read and open for amendment at any point.
    Are there any Members who wish to offer an amendment?
    Seeing none, the question is now on H.R. 6133.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 6133 is agreed to.
    The question now occurs on reporting H.R. 6133 to the 
House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 6133 is reported to the House.
    Without objection, the committee staff is authorized to 
correct punctuation, make other necessary technical 
corrections, and conforming changes.
    Members have 2 days to file additional supplemental, 
dissenting, and minority views.
    H.R. 6021
    The final bill before us today is H.R. 6021, the Northern 
Mariana Islands Small Business Development Act, sponsored by 
Mr. Sablan of the Commonwealth of the Northern Mariana Islands, 
and cosponsored by Ms. Radewagen of American Samoa.
    This bill takes the long-overdue step of including the 
Commonwealth of the Northern Mariana Islands in the Small 
Business Development Center programs and the FAST program.
    I would now like to recognize the bill's sponsor, the 
gentleman from the Commonwealth of the Northern Mariana 
Islands, Mr. Sablan, for an opening statement.
    Mr. SABLAN. Thank you very much Chairwoman Velazquez, 
Ranking Member Chabot, and Members of the committee, for 
allowing me to sit in and explain my view on H.R. 6021.
    Thank you for your leadership supporting small businesses 
and for including my bill, the Northern Mariana Islands Small 
Business Development Act in today's markup.
    My bill ensures the 1,700 small businesses in the Marianas 
are eligible for grants through the Small Business Development 
Center Program and through FAST, the Federal and State 
Technology Program.
    The Marianas is the only place in the United States not 
included in these programs which help small businesses access 
the knowledge and capital needed to compete successfully for 
federal contracting opportunities. My bill would correct that 
by ensuring access on the same basis as their counterparts 
across the nation.
    Under H.R. 6021, the Marianas can apply to establish a lead 
SBDC, which would make available renewable funding to expand 
the reach and capacity of the existing SBDC service center on 
Saipan.
    With additional funding, small businesses on Saipan, 
Tinian, and Rota, the three mostly inhabited islands in the 
Marianas, will have better access to free or low-cost services 
such as incubator workspaces for entrepreneurs, business 
planning, operations, and other areas required for small 
business growth and success.
    H.R. 6021 would also help our small businesses participate 
in federal research and development opportunities.
    My bill does this by including the Marianas in the SBA's 
FAST program which funds outreach and assistance to small 
businesses interested in competing for the Small Business 
Innovation Research and Small Business Technology Transfer 
programs.
    I want to also thank the committee for including a 
provision from my bill H.R. 2603, into H.R. 6079, the Microloan 
Improvement Act just voted for reporting to the House.
    My provision would provide Marianas small business owners 
access to the SBA's Microloan program.
    SBA microloans provide up to $50,000 typically not offered 
by banks for working capital or the acquisition of materials, 
supplies, or equipment. This program also provides marketing, 
management, and technical assistance to assist women, low-
income and veteran entrepreneurs in my district.
    Both H.R. 6021 and H.R. 6079 provide the small businesses 
in my district access to the full range of SBA resources needed 
to help our economy and help aspiring entrepreneurs make their 
dreams of small business ownership a reality.
    I would like to thank the gentlelady from American Samoa 
for cosponsoring my bill H.R. 6021.
    Madam Chair, I yield back the remainder of my time. I urge 
members of the committee to support H.R. 6021. I yield back. 
Thank you.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    I would now like to recognize the bill cosponsor, the 
gentlewoman from American Samoa, Ms. Radewagen, for an opening 
statement.
    Ms. RADEWAGEN. Talofa and Hofa Adai.
    Today, I am proud to speak in support of H.R. 6021, the 
Northern Mariana Islands Small Business Development Act. This 
bill would allow the Northern Mariana Islands to establish a 
Small Business Development Center and gain access to other 
Small Business Administration programs. As of right now, the 
Northern Marianas is the only territory that does not have an 
SBDC, and I urge all my colleagues to support this bill.
    I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Are there any other Members that wish----
    The Ranking Member is recognized for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair, and I will be brief.
    I would like to congratulate and thank Mr. Sablan and Ms. 
Radewagen for their leadership on this legislation. I want to 
also thank you, Madam Chairwoman.
    Our last bill is one that extends a matter of simple 
fairness to American citizens. Currently, the Northern Mariana 
Islands, part of the United States since 1975, is the only U.S. 
jurisdiction not included for eligibility in certain SBA 
programs, such as the very important SBDC Lead Center Grant 
program. The Northern Mariana Islands 55,000 inhabitants 
deserve the same access to SBA programs as any other American 
citizens, and this bill ensures that they do have that.
    It is quite simple, bipartisan, and it is a just piece of 
legislation. I urge my colleagues to support it. Again, I thank 
Mr. Sablan and Ms. Radewagen, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now I recognize myself briefly.
    First, I would like to commend Mr. Sablan and Ms. Radewagen 
for their work on this bill. Mr. Sablan, it is true that 
representation matters. I am sorry that it took this long to 
bring fairness and access to all the programs that exist under 
the Small Business Administration. That should be the rule in 
every federal agency--that we open all of the programs to 
American citizens.
    With that, if there is any further discussion, the 
committee will move on to consideration of H.R. 6021.
    The clerk will read the report of the title of the bill.
    The CLERK. H.R. 6021, the Northern Mariana----
    Chairwoman VELAZQUEZ. Without objection, H.R. 6021 is 
considered as read and open for amendment at any time.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 6021.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 6021 is agreed to.
    The question now occurs on reporting H.R. 6021 to the 
House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 6021 is reported to the House.
    Without objection, the committee staff is authorized to 
correct punctuation, make other necessary technical 
corrections, and conforming changes.
    Members have 2 days to file additional supplemental, 
dissenting, and minority views.
    I would like to thank all of the Members for their 
participation today. If there is no further business to come 
before the committee, we are adjourned. Thank you.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]
    
    
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           



                                 <all>
</pre></body></html>
